<html>
<title> - FANNIE LOU HAMER, ROSA PARKS, AND CORETTA SCOTT KING VOTING RIGHTS ACT REAUTHORIZATION AND AMENDMENTS ACT OF 2006 (PART II)</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



FANNIE LOU HAMER, ROSA PARKS, AND CORETTA SCOTT KING VOTING RIGHTS ACT 
          REAUTHORIZATION AND AMENDMENTS ACT OF 2006 (PART II)

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                                 H.R. 9

                               __________

                              MAY 4, 2006

                               __________

                           Serial No. 109-119

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-336 PDF                 WASHINGTON :2006
________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                      STEVE CHABOT, Ohio, Chairman

TRENT FRANKS, Arizona                JERROLD NADLER, New York
WILLIAM L. JENKINS, Tennessee        JOHN CONYERS, Jr., Michigan
SPENCER BACHUS, Alabama              ROBERT C. SCOTT, Virginia
JOHN N. HOSTETTLER, Indiana          MELVIN L. WATT, North Carolina
MARK GREEN, Wisconsin                CHRIS VAN HOLLEN, Maryland
STEVE KING, Iowa
TOM FEENEY, Florida

                     Paul B. Taylor, Chief Counsel

                      E. Stewart Jeffries, Counsel

                          Hilary Funk, Counsel

                 Kimberly Betz, Full Committee Counsel

           David Lachmann, Minority Professional Staff Member





                            C O N T E N T S

                              ----------                              

                              MAY 4, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and Chairman, Subcommittee on the Constitution..     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Member, Subcommittee on the 
  Constitution...................................................     2
The Honorable Melvin L. Watt, a Representative in Congress from 
  the State of North Carolina, and Member, Subcommittee on the 
  Constitution...................................................     3
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Committee on the Judiciary     5
The Honorable Mike Honda, a Representative in Congress from the 
  State of California............................................     5

                               WITNESSES

Ms. Rena Comisac, Principal Deputy Assistant Attorney General, 
  Civil Rights Division, Department of Justice
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
The Honorable Chris Norby, Supervisor, Fourth District, Orange 
  County Board of Supervisors
  Oral Testimony.................................................    14
  Prepared Statement.............................................    16
Ms. Karen Narasaki, President and Executive Director, Asian 
  American Justice Center
  Oral Testimony.................................................    40
  Prepared Statement.............................................    42
Dr. James Thomas Tucker, Voting Rights Consultant, NALEO 
  Educational Fund, and Adjunct Professor, Barrett Honors 
  College, Arizona State University
  Oral Testimony.................................................    57
  Prepared Statement.............................................    59

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Member, Subcommittee on the Constitution.......................   108
Prepared Statement of the Honorable Melvin L. Watt, a 
  Representative in Congress from the State of North Carolina, 
  and Member, Subcommittee on the Constitution...................   110
Prepared Statement of the Honorable Linda T. Sanchez, a 
  Representative in Congress from the State of California........   110
Response to post-hearing questions from Rena Comisac, Principal 
  Deputy Assistant Attorney General, Civil Rights Division, 
  Department of Justice..........................................   112
Letter from Loren Leman, Lieutenant Governor of Alaska, in 
  response to testimony by the Leadership Conference, and a 
  report by Native American Rights Fund Attorney Natalie 
  Landreth, and law student Moira Smith, presented before the 
  Subcommittee on the Constitution...............................   115
Letter in support of reauthorization from Larry Naake, Executive 
  Director, National Association of Counties (NACO)..............   119
Letter in opposition to reauthorization from Mark C. Scott, 
  Esquire, Commissioner, Office of the Commissioners of Berks 
  County, Pennsylvania...........................................   121
Letter in opposition to reauthorization from Steve Tatarenko, 
  Councilman, Clifton, New Jersey................................   123
Prepared Statement of Jan Tyler, former Denver Election 
  Commissioner, Denver, Colorado.................................   125

 
FANNIE LOU HAMER, ROSA PARKS, AND CORETTA SCOTT KING VOTING RIGHTS ACT 
          REAUTHORIZATION AND AMENDMENTS ACT OF 2006 (PART II)

                              ----------                              


                         THURSDAY, MAY 4, 2006

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:45 p.m., in 
Room 2142, Rayburn House Office Building, the Honorable Steve 
Chabot (Chairman of the Subcommittee) presiding.
    Mr. Chabot. The Committee will come to order. This is the 
Subcommittee on the Constitution. We welcome everyone here this 
afternoon. This is the second hearing that this Committee has 
had today and it's actually the 12th hearing that we have had 
on the Voting Rights Act since we started this process about 7 
months ago.
    And as I mentioned, this is the Subcommittee on the 
Constitution. I'm Steve Chabot, the Chair, and this is the 
second of two legislative hearings the Committee is holding on 
H.R. 9, which is the ``Voting Rights Act Reauthorization and 
Amendments Act of 2006.''
    I would like to thank our witnesses for being here this 
afternoon. And I gave a longer opening statement this morning; 
therefore, I will keep my remarks relatively short this 
afternoon.
    This afternoon's hearing will focus specifically on the 
provisions of H.R. 9 that reauthorize section 203, the 
bilingual election assistance provisions, for an additional 25 
years and makes certain amendments to section 203 to reflect 
recent changes to the United States Census Bureau's methods of 
collecting data.
    In addition to these provisions we will discuss concerns 
expressed by many about what is required of jurisdictions 
covered by section 203, especially as interpreted, 
administered, and enforced by the Department of Justice.
    English has been, and continues to be, the force that 
unified this country, and speaking English should be a 
requirement which all citizens of this country meet. However, 
the record shows that many of our citizens experience barriers 
to the political process because of language impediments, which 
our witnesses will discuss further today.
    In reauthorizing section 203, the Committee seeks to ensure 
that all citizens continue to have the opportunity to 
participate in the political process, including those who are 
continuing their efforts to learn English. However, we must 
also ensure that we provide needed assistance to municipalities 
so that these obligations do not become overly burdensome.
    As I said, we look very much forward to the panel, the very 
distinguished panel that we have here before us this afternoon.
    And at this time I note that Mr. Nadler is coming shortly. 
I don't know if, Mr. Scott, you wanted to make an opening 
statement or if you wanted to wait until Mr. Nadler comes or if 
you would like to speak on your own.
    Mr. Scott. I would like to speak on my own, if you don't 
mind.
    Mr. Chabot. The gentleman is recognized for 5 minutes.
    Mr. Scott. And recognize Mr. Nadler as the Ranking Member 
when he appears.
    Mr. Chabot. That's fine.
    Mr. Scott. Thank you, Mr. Chairman. I want to thank you, as 
we mentioned this morning, for the hard work that you have done 
on a bipartisan basis with Representative Watt and others. 
Appreciate the hard work that you have put in to get us to the 
point where we are now.
    Mr. Chairman, in the 40 years since its passage, the Voting 
Rights Act has guaranteed millions of minority voters a chance 
to have their voices heard and their votes counted. The number 
of Black elected officials has increased from just 300 
nationwide in 1964, the year before the Voting Rights Act, to 
more than 9,100 today. Poll taxes, literacy tests, and other 
discriminatory schemes that once effectively closed the ballot 
box have been dismantled. The process has also opened the 
political process for many of the nearly 6,000 Latinos who now 
hold public office, including more than 250 that serve at the 
State or Federal level.
    Section 203 was added to the Voting Rights Act in 1975 and 
requires certain jurisdictions to make language assistance 
available at polling locations for citizens with limited 
English proficiency. These provisions apply to four language 
groups: American Indians, Asian Americans, Alaskan natives, and 
those of Spanish heritage. A community with one of those 
language groups will qualify for language assistance if more 
than 5 percent of the Voting Act citizens in the jurisdiction 
belong to a single language minority and have limited English 
proficiency, or more than 10,000 voting-age citizens in the 
jurisdiction belong to a single language minority and have 
limited English proficiency, and the illiteracy rate among 
citizens with the language minority is higher than the national 
average.
    Mr. Chairman, it is significant that these thresholds mean 
that there is a critical mass, possibly sufficient to vote 
somebody out of office, and therefore there would be an 
incentive to try to discourage those people from voting. This 
requirement requires that if you have that kind of critical 
mass, you have to provide the language assistance.
    Mr. Chairman, registration and voting materials for all 
elections must be provided to the minority group in the 
minority language as well as in English. Oral translation 
during all phases of the voting process, from registration to 
Election Day poll workers, is also required. Jurisdictions are 
permitted to target the language assistance to specific voting 
precincts or areas where they are needed.
    It is crucial that everyone in our democracy have a right 
to vote. Yet having a right legally is meaningless if certain 
groups of people, such as those with limited English 
proficiency or those who are disabled, are unable to accurately 
cast their ballot at the polls. Voters may well be informed of 
the issues and candidates but to make sure their vote is 
accurately cast, language assistance is necessary in certain 
jurisdictions with concentrated populations of limited English-
proficient voters.
    It is important to note, Mr. Chairman, that those who are 
born in Puerto Rico are American citizens, and yet they may not 
be fluent in English. And even though most new citizens are 
required to speak English, they still may not be sufficiently 
fluent to participate fully in the voting process without much-
needed assistance.
    Before language assistance provisions were added to the 
Voting Rights Act, many Spanish-speaking citizens just did not 
bother to register to vote because they could not read the 
election material and could not communicate with poll workers. 
The fact is that language assistance has encouraged these and 
other citizens of different language minority groups to 
register and vote and fully participate in the political 
process, which is healthy for our democracy.
    Mr. Chairman, the language assistance is not costly. One of 
the reasons is that a lot of the compliance doesn't cost 
anything extra at all. That is because if you have to hire a 
poll worker anyway, hiring a poll worker who is bilingual 
doesn't cost you any more than the poll worker you had to hire. 
And so, therefore, many of the so-called expenses involved are 
not expenses at all.
    The compliance is extremely--the cost of compliance is 
extremely limited. So section 203, which we're having a hearing 
on today, is essential to ensuring fairness in our political 
process and equal opportunity for all Americans and it is 
imperative that this provision be renewed.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much, Mr. Scott.
    The gentleman from Florida is recognized if he would like 
to make an opening statement.
    Mr. Feeney. That is not necessary, Mr. Chairman, thank you.
    Mr. Chabot. Thank you very much, Mr. Feeney. The gentleman 
from North Carolina, Mr. Watt, is recognized.
    Mr. Watt. Thank you, Mr. Chairman. I'll be brief. I want to 
ask unanimous consent to submit my entire statement for the 
record. But I feel like I need to address a couple of things.
    Mr. Chabot. Without objection, so ordered.
    Mr. Watt. Number one, this morning one of the witnesses 
suggested that we had predetermined what would be in this bill 
before we had any hearings, and somehow contrived the process 
of what would be in the bill rather than using the hearings as 
a constructive means of informing us.
    And I, of course, denied that. And there is not a clearer 
example of that than this--than the language provisions. I 
mean, if I were drawing these language provisions, I think they 
would be different. And while I stand behind the bill and 
understand that it is a product of bipartisan agreement, 
everybody needs to know that.
    Second, there is this notion that perhaps this ought to be 
part of the immigration debate or is connected in some way, and 
that when we talk about these language provisions, that it is 
about Mexicans or members of the Arab community.
    I would just point out that, really, the Hispanic community 
has been probably the least of the language minorities that has 
been aggressive about this, because in most places they already 
exceed the threshold that the statute provides for. So it is 
not something that, if they were advocating solely for 
themselves, would be as much of an issue. I don't mean to 
minimize it, but it certainly--people need to understand that 
in Chicago, voluntary voter assistance is provided in Polish, 
Russian, Greek, German, Korean, and Serbian. In Boston, in 
Spanish, Haitian Creole, Cape Verdian Creole, Vietnamese, 
Portuguese, Chinese and Russian.
    So this is not about the kind of typical immigration debate 
that is going on in another context in our legislative 
environment here.
    I would just conclude by saying that the bill before us 
today extends the current language assistance provisions of the 
Voting Rights Act and that is supported by the record, not 
something that was backed into or dealt with in some arbitrary 
fashion. It does not discourage or prohibit any State or 
political subdivision from doing more to open this process to 
more voices, thereby enhancing our democracy.
    I think the bill struck a good balance on this, and while 
if I were drawing the bill solely by myself I might have done 
differently, I certainly intend to support the provisions that 
are in the bill.
    And I yield back the balance of my time.
    Mr. Chabot. The gentleman yields back.
    And we also have three--before we had one other as well--
Members; two of whom are Members of the full Judiciary 
Committee and not actually Members of this Committee, and two 
who are not Members of the Judiciary Committee at all. What our 
practice has been thus far in this is to allow those Members to 
have 5 minutes which they can choose to use either for an 
opening statement or questioning the witnesses. Or if they 
would like to, they can divide it up and take 2 minutes for an 
opening statement and 3 minutes for questioning. At your 
discretion, however you would like to do that.
    And two of the Members here are representing their various 
caucuses. One is the distinguished Member, Charlie Gonzalez 
from Texas, who is the Chairman of the Congressional Hispanic 
Caucus. And we welcome you here, as always, very good friend of 
mine, Charlie.
    And we also are joined by the very distinguished gentleman 
from California, Mr. Honda, who is the Chairman of the Asian 
Pacific American Caucus.
    And we also have two Judiciary Members here: Sheila Jackson 
Lee from Texas and Linda Chavez from California.
    Ms. Sanchez. Sanchez.
    Mr. Chabot. What did I say?
    Ms. Sanchez. Chavez.
    Mr. Chabot. I'm sorry; I apologize. I don't know what I was 
thinking.
    Ms. Sanchez. Thank you for not calling me Loretta.
    Mr. Watt. We think that is the ultimate insult.
    Mr. Chabot. I'm not going to touch that. I didn't say it 
either. In fact, I didn't even laugh.
    Ms. Jackson Lee, do you want to use your time now or do you 
want to use your time for questioning?
    Ms. Jackson Lee. I will split my time and very briefly say 
that all eyes are on this Committee and on this Congress, on 
the reauthorization of the Voting Rights Act, primarily because 
of the pathway and the opportunity that was given through the 
original passage in 1965.
    I am very eager to hear the testimony of the witnesses and 
I associate with words that I will be supporting this 
legislation.
    And my only comment I think I came in on Mr. Watt's 
commentary, so I don't want to suggest that this is what he was 
saying, but I am interested in the idea that there are many 
languages in the United States, and I hope that we will have an 
opportunity prospectively to be assured that everyone who is in 
the United States has a right to vote. And that the fact that 
language interpretation or different language is necessary to 
exercise the right of a citizen, they should not be penalized 
nor should they be condemned. So I think any attempt to 
condemn, because language is needed to make sure that your 
right to vote is exercised, should be eliminated from our 
discussion and we should move forward.
    With that, I yield back.
    Mr. Chabot. Thank you very much. The gentlewoman has 4 
minutes remaining for questioning. Thank you.
    The gentlewoman from California, Ms. Sanchez, is 
recognized.
    Ms. Sanchez. Thank you, Mr. Chairman. I am going to reserve 
my time for questions.
    Mr. Chabot. Duly noted. Mr. Gonzalez.
    Mr. Gonzalez. I also reserve my time for questioning.
    Mr. Chabot. Thank you. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. I will take a few 
minutes to make comments.
    Mr. Chairman, Ranking Member Nadler, and Members of the 
Subcommittee, I want to thank you for allowing me to make an 
opening statement at this important hearing on the 
reauthorization of the Voting Rights Act.
    Just 2 days ago H.R. 9, the Voting Rights Act 
Reauthorization Amendments Act, was introduced to strengthen 
and renew the Voting Rights Act for another 25 years. I am 
proud to be an original cosponsor of this historic measure. I 
would like to personally thank the Members of this Committee 
for their diligent work in conducting a thorough review of the 
VRA.
    Mr. Chairman, your Committee's extensive hearing record 
showed that while substantial progress has been made in the 
area of voting rights over the last 40 years, the provisions of 
the VRA, including temporary provisions, remain a necessary 
part of our efforts to protect the rights of every American 
voter.
    Last year I had the honor of being with our distinguished 
colleague, Congressman John Lewis, and others in Alabama to 
commemorate the 40th anniversary of Bloody Sunday. On that day 
on March 7, 1965, on the Edmund Pettis Bridge outside of Selma, 
Alabama, the Vivil Rights Movement continued its unwavering 
steps forward. As we all know, civil rights activists, led by 
Dr. King, took to the streets in a peaceful protest for voting 
rights for African Americans. They were met with clubs and 
violence. This dramatic event helped the Nation understand what 
was at stake.
    What makes the promise of this Nation a reality is the 
ability to vote. The VRA helps to ensure that everyone who is 
eligible to vote has that opportunity. This month is Asian 
Pacific American heritage month and I'm here to underscore the 
point that the right to vote is keenly felt by the Asian and 
Pacific islander American community.
    Chinese Americans could not vote until Chinese Exclusion 
Acts of 1882 and 1892 were repealed in 1943. First-generation 
Japanese Americans could not vote until 1952 because of the 
racial restrictions contained in the 1790 naturalization law. 
More recently, language minority citizens were often denied 
needed assistance at the polls. In the 1975 amendments to the 
Voting Rights Act, such language assistance became required in 
certain situations, and I submit to you today that section 
203's impact and importance to language minority communities 
has only grown.
    When I was a supervisor in Santa Clara County, California, 
I led an effort to get sample ballots printed in English and 
Chinese. And I know firsthand how important this was to the 
community. Their participation increased by 11 percent. And the 
Vietnamese ballots, we made them available upon request.
    I am looking forward to hearing from our distinguished 
panel today. I am especially looking forward to important 
testimony from my good friend, Karen Narasaki, President and 
Executive Director of the Asian American Justice Center. Karen 
Narasaki and AAJC have been at the forefront of protecting the 
rights of Asian Americans. The record of evidence established 
in her testimony will clearly show the importance of section 
203 and other provisions of the Voting Rights Act.
    Again I thank the Chair and Ranking Member and Subcommittee 
Members for allowing me to make this statement today, and I 
yield back.
    Mr. Chabot. Thank you, Mr. Honda, and you have 2 minutes 
remaining.
    We would now like to--after stating that, without 
objection, all Members would have 5 legislative days to submit 
additional materials for the hearing record--we will introduce 
our distinguished panel this afternoon.
    Our first witness will be Ms. Rena Comisac. Ms. Comisac was 
appointed Deputy Assistant Attorney General for the Civil 
Rights Division of the U.S. Department of Justice in October of 
2005, and Principal Deputy Assistant Attorney General in April 
of 2006. Prior to joining the Civil Rights Division, Ms. 
Comisac served as Deputy Chief of Staff for the Criminal 
Division. From 1998 to 2000 she worked as Assistant U.S. 
Attorney for the middle district of Georgia, where she 
prosecuted asset forfeiture in white collar crimes cases.
    Ms. Comisac served as a staffer on the U.S. Senate 
Permanent Subcommittee on Investigations from 1997 to 98 and 
2000 to 2001. In addition, she served as staff on the Senate 
Judiciary Committee from 2001 to 2004. We welcome you here this 
afternoon, Ms. Comisac.
    Our second witness will be the Honorable Chris Norby. Mr. 
Norby was elected to the Orange County Board of Supervisors in 
March 2002. He was sworn in as the Supervisor of the Fourth 
District on January 6, 2003. Prior to his election to the Board 
of Supervisors, Mr. Norby served on the Fullerton City Council 
since 1984. He also served 3 years as the Mayor of Fullerton. 
His 18 years of public service place him among the most senior 
of Orange County's elected city officials. As a member of the 
Orange County Board of Supervisors, Mr. Norby works to 
implement structural reform for local governments. We welcome 
you here this afternoon, Mr. Norby.
    Our third witness is Karen Narasaki. Ms. Narasaki is 
President and Executive Director of the Asian American Justice 
Center. AAJC is a nonprofit, nonpartisan civil rights 
organization whose mission is to advance the human and civil 
rights of Asian Pacific Americans through advocacy, public 
policy, public education and litigation.
    Ms. Narasaki serves in a number of leadership positions in 
the civil rights and immigrant rights communities. She is Vice 
Chair of the Leadership Conference on Civil Rights. She is also 
the Vice President of the Coalition for Comprehensive Immigrant 
Reform and the Chairperson of the Rights Working Group. Before 
joining AAJC, Ms. Narasaki was the Washington, D.C. 
representative for the Japanese American Citizens League. Prior 
to that, she was a corporate attorney at Perkins Coie in 
Seattle, and served as a law clerk to Judge Harry Pregerson on 
the U.S. Court of Appeals for the Ninth Circuit. We welcome you 
here, Ms. Narasaki.
    And our fourth and final witness is Dr. James Thomas 
Tucker. Dr. Tucker is a Voting Rights Consultant for the 
National Association for Latino Elected and Appointed Officials 
Education Fund, with expertise in redistricting and voting 
rights law. He is also a former senior trial attorney with the 
voting section of the Department of Justice. Dr. Tucker's 
litigation experience at the Justice Department included 
Georgia v. Ashcroft, minority language assistance cases under 
section 203, and Federal observer coverage, to name a few. He 
has also published numerous articles on the Voting Rights Act 
and voting law, including ``Minority Language Assistance 
Practices in Public Elections.'' we welcome you here this 
afternoon, Mr. Tucker.
    For those of you who may not have testified before a 
congressional Committee, we have what is called the 5-minute 
rule. That is the time allotted to each of you to give your 
testimony. We actually have two timepieces up there where there 
will be a series of lights. The green light will be on for 4 
minutes. The yellow light is a warning to let you know you have 
1 minute remaining. And when the red light comes on, we would 
appreciate it if you would wrap up as close to that as 
possible. We won't gavel you down immediately, but if you could 
stay within that we would be appreciative. And we will also 
restrict ourselves to 5 minutes in questioning you all as well.
    It is also the practice of this Committee to swear in all 
witnesses appearing before it. So if you wouldn't mind, if you 
could all please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Chabot. All witnesses have indicated in the 
affirmative. And we will now hear from our first witness.
    Ms. Comisac you are recognized for 5 minutes.

TESTIMONY OF RENA COMISAC, PRINCIPAL DEPUTY ASSISTANT ATTORNEY 
     GENERAL, CIVIL RIGHTS DIVISION, DEPARTMENT OF JUSTICE

    Ms. Comisac. Thank you, Chairman Chabot.
    Mr. Chabot. And you all need to turn the mike on. You did, 
but you will need to turn the mike on.
    Ms. Comisac. It is my privilege this afternoon to provide 
you with an overview of the Justice Department's enforcement of 
the minority language sections of the Voting Rights Act. Under 
this Administration, the Justice Department has undertaken the 
most extensive sections 203 and 4(f)(4) enforcement activities 
in history.
    The initiative began immediately following the Census 
Bureau's 2002 determinations as to which jurisdictions are 
covered under section 203. The Civil Rights Division not only 
mailed formal notice and detailed information on section 203 
compliance to each of the 296 covered jurisdictions, but we 
also initiated face-to-face meetings with State and local 
election officials and minority community members in the 80 
newly covered jurisdictions to explain the law, to answer 
questions, and to foster the implementation of effective legal 
compliance programs. That is an effort that has been a 
continuing one in the Justice Department.
    In August 2004, the Assistant Attorney General for the 
Civil Rights Division mailed letters to the 496 jurisdictions 
covered by sections 203--or 4(f)(4)--reminding them of their 
obligations in the November 2004 general elections and offering 
them guidance on how to achieve compliance. This was the first 
blanket mailing to the section 4(f)(4) jurisdictions since 
shortly after their original designations in 1975.
    The division's voting section has been systematically 
requesting voter registration lists and bilingual poll 
assistance data from all covered jurisdictions. This 
information is then reviewed to identify polling places with a 
large number of minority language voters and to ascertain 
whether the polling places are served by a sufficient number of 
bilingual poll officials who can provide assistance to voters.
    We fully recognize that comparing voter registration lists 
to the Census Bureau's Spanish surname list, place of birth 
data, or other data, are imperfect measures of the language 
need in a precinct. We use such data as a mere starting point 
in our investigations. We also suggest it as a convenient 
starting point for local election officials, in trying to 
determine how and where best to meet the needs of their voters.
    The division is also systematically looking at the full 
range of information provided by covered jurisdictions to 
voters in English, and determining whether the same information 
is being made available to each minority language community in 
an effective manner and whether necessary translated materials 
are actually provided at the polling places.
    These efforts have borne abundant fruit. Since 2001, this 
Administration has filed more minority language cases under 
sections 4 and 203 than in the entire previous 26 years in 
which these provisions have been applicable. The lawsuits filed 
in 2004 alone provided comprehensive minority language programs 
to more citizens than all previous sections 203 and 4(f)(4) 
suits combined.
    Among these cases were the first suits ever filed under 
section 203 to protect Filipino and Vietnamese voters. We 
recognize, of course, that States and local jurisdictions do 
not have unlimited budgets. We thus encourage and work with 
local election officials to identify the most efficient 
channels of communication to get information effectively to the 
language minority community at low cost.
    Our lawsuits have significantly narrowed gaps in electoral 
participation. In Yakima County, Washington, for example, 
Hispanic voter registration went up more than 24 percent in 
less than 6 months after resolution of the division's section 
203 lawsuit. In San Diego County California, Spanish and 
Filipino registration was up 21 percent, and Vietnamese 
registration was up more than 37 percent within 6 months of the 
division's enforcement action.
    The division's minority language enforcement efforts 
likewise have made a tremendous difference in enhancing 
minority representation in the politically elected ranks. For 
example, a memorandum of agreement in Harris County, Texas, 
helped double Vietnamese voter turnout, and the first 
Vietnamese candidate in history was elected to the Texas 
legislature, defeating the incumbent chair of the 
Appropriations Committee by 16 votes, out of more than 40,000 
cast.
    Let me say in conclusion, that the Civil Rights Division 
has made the vigorous enforcement of the Voting Rights Act 
language minority provisions, one of its primary missions. Our 
enforcement program shows the continuing need for the minority 
language provisions of the act, and we support their 
reauthorization. Thank you.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Ms. Comisac follows:]
                 Prepared Statement of Rena J. Comisac
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Chabot. Mr. Norby, you are recognized for 5 minutes.

  TESTIMONY OF THE HONORABLE CHRIS NORBY, SUPERVISOR, FOURTH 
          DISTRICT, ORANGE COUNTY BOARD OF SUPERVISORS

    Mr. Norby. Thank you. My name is Chris Norby. I represent 
the Fourth Supervisional District of Orange County, California, 
including the cities of Anaheim, Fullerton, Placentia, LaHabra 
and Buena Park. I will have to catch a 5:40 flight to Long 
Beach and so I may not be able to stay for the entire hearing, 
but I do thank you for listening to my testimony and I welcome 
any questions at any time.
    I would also like to enter into the record letters of three 
other elected officials unable to be here, which I believe you 
have a copy of--Mark Scott, who is a commissioner from Berks 
County, Pennsylvania; Jan Tyler, elections officer from Denver, 
Colorado; and Stephan Chaterenko from Clifton, New Jersey, who 
have comments similar to mine. I believe you have these as 
well.
    Mr. Chabot. Without objection, they will be entered into 
the record.
    [The information referred to is printed in the Appendix.]
    Mr. Norby. Our county has made it clear that we support 
clear, reasonable, Voting Rights Act provisions and that they 
not be subject to continual changes by Department of Justice 
agents.
    We suggest five specific improvements to the Voting Rights 
Act:
    Number one, accept naturalized voter self-description of 
their own English ability. Speaking English well or very well 
should both be considered adequate.
    Two, non-English voting materials should only be provided 
to those who request it.
    Three, delete the numerical threshold of 10,000 which is 
unrealistic in large urban counties, and raise the 5 percent 
threshold to 10 percent.
    Four, English fluency assumptions must never be based on a 
voter's surname.
    And number five, multilingual ballot provisions must not be 
applied to petitions.
    The multilingual ballot sections of the Voting Rights Act, 
I believe, perpetuate negative stereotypes, are outdated, 
vague, and violate the spirit of assimilation that holds our 
country together. According to the current interpretation of 
the VRA, my county of Orange must provide translations in 
Spanish, Vietnamese, Chinese and Korean. Yet in the 1995 
special election, countywide, only seven-tenths of 1 percent of 
our voters requested such materials.
    The method for determining which voters are non-English 
speaking is highly suspect. Census forms ask us whether we 
speak English well, very well, not well, or not at all. Only 
those checking ``very well'' are judged capable of voting in 
English.
    Speaking English well should be good enough, as it was 
obviously good enough to pass the citizenship test. In 
addition, all immigrants who have not finished the fifth grade 
are presumed illiterate. When more than 5 percent, or 10,000 
people, of the voting age population in the county meet these 
criterion, non-English ballot requirements take effect.
    If these standards are left unchanged after the 2010 
census, my county could be required to translate into a 
plethora of additional languages, including Tagalog, Hindi, 
Punjabi, Urdu and Farsi, depending on future immigration 
patterns.
    Such confusing rules allow Department of Justice agents to 
push us far beyond what the law actually requires. Last year, 
at an expense of over $20,000 from our county general fund, we 
were required to send about 120,000 outreach letters offering 
naturalized voters foreign-language ballot materials. We got 
hundreds of angry responses back from voters at the suggestion 
they could not speak English based on their heritage. And these 
cards have been provided to you--samples of these cards.
    Department of Justice agents have now given our registrar a 
list of Spanish, Vietnamese, Korean and Chinese surnames. And 
based on last names alone, we are told to assume that 25 
percent of the voters with these last names are limited 
English-speaking. And you have these surnames here, this list 
which was provided to us by the Department of Justice. Most of 
our voters with Spanish, Vietnamese, Korean and Chinese 
surnames were born in this country, while many others took 
these names upon marriage. The rest all took citizenship tests 
in English, and it is insulting to stereotype people's language 
ability based on their last names.
    I urge a total reexamination of the need for multilingual 
ballots. If they are kept, again, five simple clarifications 
would greatly improve the Voting Rights Act, and we have 
submitted these in writing for your consideration:
    One, accept naturalized voters' self-description of their 
own English ability. Speaking English well should qualify.
    Two, non-English voter material should only be provided to 
those who request them. And we are being told by the Department 
of Justice it is possible in the future we will have to have 
all five translations of all languages published in the same 
voter pamphlet and sent to all voters. This would cost us $20 
million per election cycle and produce a sample ballot the size 
of a phone book, and it would lead to an anti-immigrant 
backlash. These practices are recruiting Minutemen that ask why 
they have to be addressed because they are perpetuating 
negative stereotypes.
    English fluency assumptions must never be based on a 
voter's surname. And multilingual ballot provisions must not 
apply to petitions. We recently had a suit in the Ninth 
District Court where our registrar was challenged because the 
petition in a Santa Ana recall case was not also published in 
Spanish. That is nowhere in the act. But judges must be told 
that these provisions do not apply to petitions. That would put 
a tremendous burden on those who would want to petition their 
government and change their government. Let the values of the 
Voting Rights Act reflect the civic value of assimilation, not 
static schisms. Let voting be a tool for unity, not divisions. 
Thank you.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Norby follows:]
                   Prepared Statement of Chris Norby
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ATTACHMENT 3
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Chabot. Ms. Narasaki, you are recognized for 5 minutes.

TESTIMONY OF KAREN NARASAKI, PRESIDENT AND EXECUTIVE DIRECTOR, 
                 ASIAN AMERICAN JUSTICE CENTER

    Ms. Narasaki. Thank you, Mr. Chairman. Good afternoon. I am 
pleased to be here to testify on behalf of the Asian American 
Justice Center. One of our top priorities has long been the 
elimination to discriminatory barriers to voting. We have 
worked in partnership with local Asian American community-based 
organizations and the Department of Justice to ensure 
compliance with the Voting Rights Act. And we commend the 
leadership and the Chairs and Ranking Members of both the House 
and Senate Judiciary Committees and Subcommittees in working 
together to ensure that Congress has a full record to review as 
it considers the reauthorization of this very important piece 
of legislation.
    I'd like to request that my full written statement be 
formally entered into the hearing record.
    Mr. Chabot. Without objection, so ordered.
    Ms. Narasaki. Thank you. Since the Voting Rights Act has 
been enacted, Asian Americans have made some gains in electoral 
representation. About 75 percent of the Asian Americans elected 
are in jurisdictions either covered by section 2, which is the 
language assistance provisions of the act, or section 5, which 
is preclearance covered jurisdictions.
    And while progress has been made, Asian Americans still 
face significant race discrimination at the polls when 
attempting to exercise their right to vote, including hostile 
and unwelcoming poll workers, and outright challenges on the 
right to vote based on their race. AAJC believes that H.R. 9 is 
critical to helping ensure the health of our democracy.
    Here are just a couple of examples of problems from recent 
elections. In Jackson Heights, Queens, New York during the 2004 
elections one poll worker said: You Oriental guys are just 
taking too long to vote. In fact, we heard many complaints of 
some poll workers telling people who didn't speak English that 
well that they had to go back to the back of the line.
    In the 2004 primary elections in Bayou LaBatre, Alabama, 
there was a concerted effort to intimidate Asian American 
voters made by the supporters of a White incumbent running 
against a Vietnamese American candidate. These supporters 
challenged Asian Americans at the polls, charging without any 
basis other than their race that they were not U.S. citizens or 
city residents or they had felony convictions.
    There is also evidence of the continuation of racially 
polarized voting. For example, in the 2003 gubernatorial 
election in Louisiana, Congressman Bobby Jindal was well ahead 
in the preelection polls prior to the November runoff, but on 
Election Day he lost. A significant number of those who voted 
for David Duke, noted for his past leadership of the KKK, swung 
their support away from the very conservative Asian American, 
Jindal, to the much less conservative White Democrat, Kathleen 
Blanco.
    We strongly support H.R. 9's provisions that would renew 
and strengthen the preclearance provisions of section 5 and the 
award of expert witness fees for the prevailing party in 
enforcement actions. We also strongly endorse the renewal of 
the Federal observer provisions which deter and prevent 
discrimination at the polling place. Indeed, we ask the 
Subcommittee to consider strengthening them by amending the act 
to authorize the Attorney General to send Federal observers to 
section 203 covered jurisdictions, just as they are able to do 
with section 5 covered jurisdictions.
    We would ask specifically to discuss section 203 today 
which is very critical, as Congressman Honda noted, to the 
Asian American community. While new immigrants are required to 
be able to speak transactional English for citizenship, voting 
materials are often written at a much more complex level. 
Voting can be particularly daunting for those whose only 
language--those of us who actually speak English. In 
California's 2004 election, there were 16 measures and the 
voting guide was over 200 pages long.
    Moreover, although many language minorities were born in 
this country or came here at a very young age, many have had 
trouble speaking English well, often because they received a 
substandard education. Others have not had adequate access to 
advanced ESL classes to be able to learn English at the level 
required for the voting process.
    In addition, the United States encourages senior citizens 
who have been here 20 years and who have been contributing to 
America, to become citizens by waiving the English literacy 
requirement when applying for citizenship. Also exempted are 
Hmong veterans who helped Americans during the Vietnam War and 
were pledged refuge by the United States.
    The formula triggering coverage is a very rigorous one. It 
does not presume that all minority voters need assistance, but 
considers educational attainment as well as self-assessed 
language ability. The Census Bureau asks for English ability in 
its long-form census questionnaire. And it has determined by 
testing that respondents for various reasons tend to 
overestimate their ability to speak English. So only those who 
respond that they speak English very well are deemed to be 
truly proficient.
    As a result of these strictures, only 16 jurisdictions in 
seven States are covered for any Asian language. These 
jurisdictions account for half of the Nation's Asian American 
population. Section 203 has also proven effective in achieving 
its objective. Both Asian American voter registration and voter 
participation has increased significantly in the covered 
jurisdictions.
    In 2004, for example, over 10,000 Vietnamese American 
voters registered in Orange County, which helped to lead to the 
election of the first Vietnamese American to the California 
State legislature. As was noted earlier, 2004 also saw the 
first Vietnamese American elected to the Texas State 
legislature after Harris County began fully complying with 
section 203.
    We recommend that the Subcommittee consider strengthening 
section 203 by lowering the numerical threshold for language 
assistance coverage from 10,000. The advent of computerized 
voting makes the provision of language access even easier than 
when the formula was last set in 1992. For example, lowering 
the threshold to 7,500 would trigger coverage for at least 
three more Southeast Asian American communities.
    On behalf the AAJC, I would like to thank the Committee for 
allowing me to testify today.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Narasaki follows:]
                Prepared Statement of Karen K. Narasaki
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Chabot. Dr. Tucker, you are recognized for 5 minutes.

  TESTIMONY OF JAMES THOMAS TUCKER, VOTING RIGHTS CONSULTANT, 
 NALEO EDUCATIONAL FUND, AND ADJUNCT PROFESSOR, BARRETT HONORS 
               COLLEGE, ARIZONA STATE UNIVERSITY

    Mr. Tucker. Thank you, Mr. Chairman. Mr. Chairman and 
distinguished Members of this Subcommittee, I want to thank you 
for your strong bipartisan leadership, and I want to 
specifically acknowledge two members of NALEO, Mr. Gonzalez of 
Texas and Ms. Sanchez of California, for the work that you have 
done on this bill.
    I want to express my strongest support for H.R. 9. Section 
7 of H.R. 9 provides for a straight reauthorization of sections 
4(f)(4) and 203 of the Voting Rights Act until August of 2032. 
Section 2 of the bill outlines substantial evidence of 
continued discrimination against language minorities that 
supports the 25-year reauthorization.
    Equally important, the bill reaffirms the findings in 
section 203 of the Voting Rights Act. There is an extensive 
record of documented discrimination in voting and education 
that supports maintaining the protections in sections 4(f)(4) 
and 203 of the Voting Rights Act for the four covered language 
groups. Other language groups have not been included because 
there is no similar record for those groups.
    H.R. 9 maintains the existing section 203 coverage formula. 
It also updates the data used for coverage determinations to 
reflect changes in how the Census Bureau collects language 
ability data using the American community survey.
    In 1992, Congress acknowledged the substantial record of 
educational discrimination against the covered language 
minority groups. Since 1975, at least 24 successful educational 
discrimination cases have been brought on behalf of English 
language learners in 15 States, 14 of which are presently 
covered by section 203; 10 of those cases have been since 1992. 
Consent decrees or court orders remain in effect for English 
language learner students Statewide in Arizona and Florida, and 
in the cities of Boston, Denver, and Seattle.
    The December 2005 decision in Florez v. Arizona illustrates 
the impact that unequal educational opportunities have had on 
the 175,000 English language learner students enrolled in 
Arizona's public schools. As the Court explained in citing the 
State $500,000 a day for being in contempt of its prior orders, 
and I quote: ``The court can only imagine how many students 
have started school since Judge Marquez entered the order in 
February 2000 declaring these programs were inadequately funded 
in an arbitrary and capricious manner that violates English 
language learner students' rights under the Equal Education 
Opportunity Act. How many students may have stopped school by 
dropping out or failing because of the foot-dragging by the 
State?''
    Educational discrimination is compounded by the absence of 
sufficient adult-ESL programs in most of the covered 
jurisdictions. In Albuquerque, the largest provider reports an 
average waiting time of about 12 months. In Boston, the average 
waiting time is 6 to 9 months, but some adults have to wait as 
much as 2 to 3 years.
    As of just a few days ago, there were at least 16,000 
adults on ESL waiting lists in Boston. In New York, the need 
for adult-ESL courses is estimated to be 1 million, but only 
41,000 adults were able to enroll in 2005. Most adult-ESL 
programs no longer keep waiting lists because of the extreme 
demand, but use lottery systems in which at least 3 out of 
every 4 adults are turned away.
    In Phoenix, the largest adult-ESL provider reports a 
waiting list of over 1,000 people, with a waiting time of up to 
18 months for highest-demand evening classes.
    In Rhode Island, over half of all adults on waiting lists 
have been waiting for 12 months or more. This demonstrates that 
there is a national problem on ESL.
    Limited-English-proficient adults are extremely motivated 
to learn English and become fully assimilated into American 
society. The average adult-ESL student is the working poor, 
holding two jobs, supporting a family and learning English in 
the few hours available to them in the evenings.
    It can take several years for LEP students to even acquire 
spoken English language and literacy skills equal to a fifth-
grade education, which is still functionally illiterate. The 
need for language assistance on ballot questions is especially 
important because of the growing number of propositions 
directly impacting the covered language minority citizens. An 
average of 13.1 percent of voting-age citizens are limited-
English-proficient in the languages triggering coverage, with 
an average illiteracy rate that is nearly 14 times the national 
rate.
    The barriers posed by educational discrimination, language, 
and the absence of sufficient ESL classes and high illiteracy 
result in significantly decreased voter participation. H.R. 9 
maintains the existing bailout provision from section 203 
coverage for jurisdictions that are able to remedy the 
illiteracy rate of the applicable language minority groups. As 
I testified previously, where implemented properly, language 
assistance accounts for only a small fraction of total election 
costs, if at all.
    For these reasons I recommend that without delay the House 
pass H.R. 9, without amendment, to ensure the continued 
protection of the right to vote for all American citizens.
    Thank you very much for your attention and I will welcome 
the opportunity to answer questions you may have.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Tucker follows:]
             Prepared Statement of Dr. James Thomas Tucker
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Chabot. As Chair, I'm going to yield to the gentleman 
from North Carolina, who has a flight to catch, and let him 
question first. The gentleman from North Carolina is recognized 
for 5 minutes.
    Mr. Watt. I thank the Chairman for yielding to me first, 
and I want to offer to Mr. Norby, if he wants a ride to the 
airport I will be happy to give it to him.
    Mr. Norby. Great. Are you going to Long Beach on Jet Blue 
too?
    Mr. Watt. No. Are you going to Dulles?
    Mr. Norby. Yes, I'm going to Dulles.
    Mr. Watt. Oh, you are in trouble. You need to leave now. 
I'm going to National. And my flight is before yours, but you 
need to leave immediately.
    Mr. Norby. All right. I presume your questions are not for 
me, then.
    Mr. Watt. That's right. But I was going to give you a ride.
    My question is actually for the representative from the 
Justice Department, because if the answers to any of these 
questions are ``yes,'' please just give us the information 
about them subsequently so that we can put it into the record. 
If they are ``no,'' then you can just answer them quickly 
``no.'' but if they are ``yes,'' then we need information about 
them.
    Section 11(a) of the Voting Rights Act prohibits any person 
acting under color of law from failing or refusing to permit 
any person entitled to vote from voting.
    Have there been any documented violations or prosecutions 
by the Department of Justice for violations of section 11(a) of 
the Voting Rights Act?
    Ms. Comisac. I do not know the answer to that question. I 
will provide it to the Committee.
    Mr. Watt. Section 11(b) prohibits any person, quote, 
whether acting under color of law or otherwise, closed quote, 
from intimidating, threatening, or coercing or attempting to 
intimidate, et cetera, any person from voting or attempting to 
vote.
    Have there been any documented violations or prosecutions 
by the Department of Justice for violations of this section?
    Ms. Comisac. Again, I will be glad to provide that 
information.
    Mr. Watt. Third, sections 204 and 205 proscribe certain 
activity under the Voting Rights Act.
    Have there been any documented violations or prosecutions 
by the Department of Justice for violations of this section--of 
these two sections of the Voting Rights Act?
    Ms. Comisac. I will be glad to provide that information.
    Mr. Watt. Wonderful. Now, in anticipation of receiving 
this, Dr. Tucker, I think you might be able to tell us what the 
significance of either ``yes'' or ``no'' answer might be, if 
you have an opinion about that, on these questions.
    Mr. Tucker. Well, I believe what it will show is that those 
provisions are obviously meant to complement section 203 and 
section 404. They are not meant to replace the provision, by 
any stretch of the imagination. And I believe, again, that 
there are--to the extent that they are undocumented instances 
in which certain cases may or may not have been brought, I 
think that it will go far to show whether or not--whether or 
not section 203 is needed and whether or not instances in which 
voters who may need assistance may not only not get it, but 
there may be instances of specific discrimination or 
intimidation at the polls that obviously would discourage not 
only that voter but other voters from the same covered language 
group from coming to the polls as well.
    Mr. Watt. We're just trying to complete the circle here. If 
you will provide that subsequent to the hearing, it would be 
great. I said, jokingly, that you should leave, Mr. Norby. I 
really was not joking. I think we should excuse Mr. Norby, 
unless somebody has questions immediately, because he is not 
going to make his plane.
    Mr. Norby. I may not, but I am here representing my county 
and if there are any questions for me, I would be happy to take 
them.
    Mr. Watt. You didn't have any particular perspective on any 
of the questions I asked, I take it?
    Mr. Norby. Well, yes, I do have a very strong perspective. 
I think that this is a law that is creating negative 
stereotypes, which is putting an undue burden on counties. 
Twenty million dollars is a lot of money from our general fund 
if we are required to publish all five languages in the same 
voter information pamphlet, which DOJ agents have said we are 
going to have to do. That is going to create an anti-immigrant 
backlash. Imagine people getting in the mail a phonebook-sized 
book.
    Mr. Watt. I thought we were talking about the questions I 
just asked. Is this responsive to those questions?
    Mr. Norby. You will have to determine that and if they are 
not, I will wait for the next one.
    Mr. Watt. Thank you. I think I will yield back, and I 
appreciate the Chairman--and I wish I was going to Dulles. 
Actually, I don't wish I was going to Dulles. That is a 
challenge at this time of day. But I would have been happy to 
give you a ride to National.
    Mr. Norby. I appreciate that. Maybe next time.
    Mr. Chabot. The gentleman yields back. The Chair recognizes 
himself for 5 minutes for questioning, and I will start with 
you, Ms. Comisac, if I can.
    Could you explain the impetus for the Department's 
increased enforcement efforts under section 203? And are 
jurisdictions, at least some, not complying? And what efforts 
does the Department take to work with jurisdictions before 
engaging in litigation?
    [3:40 p.m.]
    Ms. Comisac. I will be glad to address those questions. 
Your first question was the impetus for our enforcement 
efforts; and, Chairman, we take very seriously our obligations 
to enforce each of the provisions that are part of our 
responsibility, part of the Civil Rights Division's 
responsibility, under the Voting Rights Act.
    Section 203 is one of the sections, and we are committed to 
do vigorous enforcement of section 203 as a means by which 
Congress has made a determination that we should, to the extent 
practicable, as Congressman Scott put it, meaningful access 
right to vote for non-English-speaking Americans.
    Mr. Chabot. Can I interrupt you for one moment? Mr. Norby, 
were you going to leave? Because maybe we could address our 
questions to you right now. What time is it?
    Mr. Norby. Yes. I need to catch my plane. The flight is at 
5:45 from Dulles, and the one after that is in the morning.
    Mr. Gonzalez. Mr. Chairman, I have questions for Mr. Norby.
    Mr. Chabot. Can you stay for another 5 or 10 minutes?
    Mr. Norby. I would be happy to.
    Mr. Chabot. We will come back to Ms. Comisac if we can.
    I have one question for you. Could you describe how helpful 
is the Department of Justice in working with covered 
jurisdiction to determine what assistance is required?
    Mr. Norby. Well, our Registrar of Voters has reported 
repeatedly, two different registrars, that the attitude is 
confrontational and arrogant. We have repeatedly told them they 
are only required to meet the law; and they have told us that 
the agents say they are free to interpret the law, and we feel 
they are making interpretations not based on what the law 
actually says. The law does not allow, for example, an analysis 
of English fluency based on surnames. This is nowhere in the 
law, but this is the list the Department of Justice has given 
us.
    And we want to work with the Department of Justice. We are 
happy to follow the law, but we feel as long as authorized, it 
must be clear as to what we have to do, and we will do it. But 
the law cannot be a license to continue ratcheting up licenses 
that are not within the law.
    Mr. Chabot. Okay. Also could you comment on how costly it 
is to comply with section 203?
    Mr. Norby. Well, it depends on how far it is going to be 
pushed. Like I said, a previous DOJ agent had said that they 
are emphasizing the county should place all languages in the 
same voter pamphlet all together. We have a total of five. If 
we do that, it will cost us $20 million per election cycle. The 
so-called outreach which sent questionnaires to non-native 
voters cost us about $20,000, and mostly we got a negative 
response from these voters, feeling insulted. If they wanted 
the materials, they would have asked for it, and they didn't 
appreciate us suggesting they didn't speak English well.
    The poll worker requirements is hard to judge. It is very, 
very difficult to try to find them. We are being told a number 
of precincts in Irvine are going to have to have Chinese-
language poll workers.
    We can only pay $70 a day for these poll workers. The 
typical Chinese American voter in Irvine who might speak 
Mandarin is a professional, highly skilled. Many of them are 
making $70 an hour and really have no interest in being a poll 
worker for that amount of money. So it is very difficult to 
find people like this. Many of them are perfectly fluent in 
English. Certainly if you are talking about Asian Americans, 
the educational level of Asian Americans in my county is at 
least as high, if not higher, than the typical population. So 
the educational opportunity is there.
    So I feel the law is creating stereotypes. It is helping to 
fuel an anti-immigrant backlash, and it is creating Minutemen.
    Mr. Chabot. Let me stop you there on my questions, and I 
would like to go down the line. I would like if each Member has 
questions for Mr. Norby, we could do that now.
    Mr. Scott, if you want to yield to one of the others 
because they are champing at the bit.
    Mr. Scott. Most of them would be for the others.
    Mr. Chabot. Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Norby. I see you 
are not as advocate you are in local government.
    Mr. Norby. I am an elected official just like all of you. I 
am the only one on this panel.
    Ms. Jackson Lee. I sense there is a concern about unfunded 
mandate.
    Mr. Norby. Definitely.
    Ms. Jackson Lee. With that in mind, I would assume, then, 
that you would not wish to deny a person that had the right to 
vote whose only barrier might be language, and they had every 
right to vote, you are not asking us to deny that person the 
right to vote.
    Mr. Norby. I am not asking anyone be denied any right to 
vote.
    Ms. Jackson Lee. So with that in mind, if we are able with 
the reauthorization of this legislation to address the issue of 
unfunded mandates, you think it would be appropriate to ensure 
that everyone who had the right to vote should vote?
    Mr. Norby. Well, the money is only a part of it. Current 
law does allow any voter to take in any person that they want 
into the polling place, including any interpreters. It does 
allow that.
    Ms. Jackson Lee. It allows that, but if the voter chooses 
to be able to vote in private on their own, and their only 
barrier may be a language, temporary or otherwise, you are not 
suggesting we should deny them the right to vote?
    Mr. Norby. I would suggest we take a look again at the 
citizen requirements which theoretically----
    Ms. Jackson Lee. You are going beyond the parameters of 
this legislation, which is the question of whether or not a 
person has the right to vote. I just want to be clarified of 
where you are going. That may be a debate that we are having, 
Mr. Chairman, on immigration, but we are talking about the 
reauthorization of the Voter Rights Act, and we are talking 
about citizens who have the right to vote. I am trying to 
understand if you are trying to deny the citizens the right to 
vote.
    Mr. Norby. I am not trying to deny that at all. I have a 
large number of Romanians in my city.
    Ms. Jackson Lee. You are okay with citizens voting.
    Mr. Norby. They are not covered by this, and yet many 
people in many language groups aren't covered by this. So there 
are people out there now that you might say are being denied 
that.
    Ms. Jackson Lee. You certainly have validity in 
acknowledging that there are other groups with a language 
issue, and, of course, as----
    Mr. Norby. There are.
    Ms. Jackson Lee [continuing]. Progress----
    Mr. Norby [continuing]. Reasonable accommodations.
    Ms. Jackson Lee. I just want to make sure you didn't leave 
with yourself being on record with wanting to deny a person the 
right to vote.
    Mr. Norby. Of course not.
    Ms. Jackson Lee. Of course not. Thank you very much.
    Mr. Chabot. The gentlelady has 2 minutes remaining.
    The gentlelady from California is recognized.
    Ms. Sanchez. Very briefly for Mr. Norby before you head out 
on your flight. I wanted to ask you, did you ever consider 
perhaps passing the citizenship test and having a certain level 
of English proficiency still might not make voting in English 
an easy proposition, especially given in California, as we 
know, a number of valid ballot initiatives that get qualified 
in each election? The double negatives that appear in the 
language----
    Mr. Norby. Sometimes triple negatives.
    Ms. Sanchez [continuing]. Are written to be purposefully 
confusing to those of us who are native English speakers, much 
less somebody who has learned English at a level that ensures 
that they can pass their citizenship test, but perhaps might 
feel more comfortable or more enfranchised being able to vote 
in a native language that they feel more comfortable in. Have 
you ever stopped to consider----
    Mr. Norby. Of course. I consider that every day of my life 
practically, how to serve as many people as we possibly can. I 
would submit $20 million would be better spent on teaching 
people in English classes rather than sending out ballot 
materials to people who haven't requested it.
    Ms. Sanchez. I do not disagree with the point you made. We 
may need to be funding more ESL classes, but unfortunately we 
have not seen an increase in funding for that.
    Mr. Norby. I taught ESL myself.
    Ms. Sanchez. I wanted to bring that to your attention 
because my mother, who is a naturalized citizen, who teaches in 
an elementary school, who is very fluent in English, on 
occasion she finds it is easier for her to vote and receive the 
materials in her native language because the election materials 
are written in a way so as to confuse. And I just want----
    Mr. Norby. Oh, that is definitely true. And English 
speakers have a difficult time understanding a lot of 
California propositions as well.
    Our county is not opposed to multilingual ballots. We think 
the threshold should be reasonable, and we also think that 
immigrant voters are capable of saying how well they speak 
English. To say an immigrant claims they speak it well but they 
really don't, we know better than them, we should take it at 
face value if they say they speak it well. And we should never 
infer language fluency based on a list of last names.
    Ms. Sanchez. I think perhaps that is a good starting point, 
but you are right. Definitely the system probably needs to be 
fine-tuned.
    Mr. Norby. No law is perfect. I just think it could be 
fine-tuned.
    Mr. Chabot. The gentleman from Texas is recognized.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    I guess, Mr. Norby, I am reading something into your 
statements that I shouldn't be reading. But let me read you 
something from your own Website of November 2005.
    In fact, the vast majority of immigrants do vote in 
English. Of the 1.5 million Orange County voters, only 10,506 
requested non-English ballots in the last election. That is 0.7 
percent of the total voting population, or just 7 out of every 
1,000 voters.
    It seems to me that you are dismissing the progress and 
effect and accomplishment of section 203, and you are 
minimizing and dismissing and discounting the importance of 
these voters.
    We don't know how many voted out there and so on and took 
advantage. Some were assisted and such, but I guess it could 
make a difference.
    Four years ago in San Antonio, State Representative Mike 
Villarreal owes his very existence and political career in 
public service to a margin of two votes. Two months ago my 
friend Judge Casin lost his reelection by seven votes; and I 
don't think I have to remind you that in Florida 2000, the 
President of the United States was elected by 537 votes or so.
    Think in terms of the impact. Now, maybe there are better 
ways of doing it, but I really do challenge you to think 
through what you are espousing here, and reaching out to that 
population that can be the margin of victory for a Republican 
or a Democrat, from State representative to President of the 
United States.
    You also have a attached to your testimony all of these 
cards you got back from those voters. Now, if you read these 
carefully, what they are representing to me here is if you 
don't speak English, you should not vote.
    Now, that hearkens back to a time we had literacy tests. We 
don't need to go back to literacy tests. That is what these 
comments indicate to me if you really read their full import.
    My question to you is: Do you place a price tag on reaching 
out to those communities, empowering them, having them come to 
the polling place and vote, and making a more informed choice; 
and if you do, what is the price?
    Mr. Norby. Well, a price tag is placed on everything, 
especially in county government, because we have to cover in 
taxing everything that we spend. The Federal Government might 
be a little bit different in that regard, and the question is, 
what is the best use of spending the money?
    You have said that these 10,000 people who voted in non-
English materials make the price worth it, and I am not 
necessarily disputing that because we are not for necessarily 
repealing this, but making them reasonable. On the other hand, 
if in the future we do add Tagalog, Hindi, Punjabi, Urdu, 
Farsi, Arabic and a whole host of additional languages, we 
might have a few thousand more people voting as well. Would 
that be worth it? Where does it stop?
    Like I say, I have a large Romanian population in my city 
of Fullerton. Romanian is specifically excluded because 
European languages other than Spanish are excluded from this. 
So large numbers of Russian immigrants are actually 
discriminated against because Russian is not considered a 
qualifying language since it is not an Asian or non-Spanish 
European language.
    So the law is already drawing a line to which languages 
qualify and which people don't qualify. The question of where 
should the line be drawn--and I am saying it should be drawn 
more clearer than it is so I, as an elected official, know 
where it is, so the Department of Justice agents can't say, 
well, that is the law, but we want you to do more than the law 
actually requires.
    I want clarity even if I disagree with what that clarity 
is. The clarity currently isn't there. It has to be there, 
especially with petitions, because if we require that all 
initiatives, all recall petitions be written in these five 
languages, then it is going to jeopardize the rights of 
citizens to petition their own government because they will 
have to be dismissed, and judges are starting to do that. So 
the VR has to do at least that.
    Mr. Gonzalez. Thresholds haven't been increased even though 
there are some of us who thought they ought to be reduced; they 
haven't been decreased to meet the guidelines in the 
applicability of this law. So you seem to be arguing maybe we 
ought to have a lower threshold so that other groups might 
qualify. I may not disagree with you on that.
    It is not where does it end. The question is, where does it 
begin? And I think you bring out a good point. But I really 
read much into your testimony and the materials that you have 
provided, and I am just simply asking look at the advantages. 
Have a positive attitude at what this accomplishes. We can do 
it better, be more creative, imaginative, and not have unfunded 
mandates from this end of the equation; but from your end, I 
think you can be creative, imaginative, and cost-efficient to a 
point where it is worth the investment. This is one country 
where we are all in this together, contrary to everything that 
is going on.
    Mr. Norby. I have 600,000 constituents, many of whom are 
foreign born, and, like you, I have to be as creative as I can.
    Mr. Chabot. Thank you very much for coming and testifying 
today.
    Mr. Norby. Thank you.
    Mr. Chabot. The gentleman has 5 seconds left. So--thank 
you, Ms. Comisac. I think we were with you on your questions. 
Do you need me to repeat them, or do you recall what the 
questions were?
    Ms. Comisac. No. I think I recall what the questions are.
    Mr. Chabot. I recognize myself for the 3 minutes that I 
have left.
    Ms. Comisac. One of the questions you asked us about was 
about our efforts to work with jurisdictions, and I would like 
to take up that questions now because I would like Mr. Norby's 
comments that I would like an opportunity to address. I think 
they may answer your questions as well.
    I am very distressed to hear his characterization of his 
interaction with the Justice Department, because our first 
efforts at enforcement of section 203 of the minority language 
provisions of the VRA, our first efforts are to work with 
jurisdictions. We find this to be a really productive method of 
achieving compliance. We hold one-on-one meetings with election 
officials. We ensure that they have points of contact in the 
Division's voting section. I mean, we have conducted outreach 
by speaking to the National Association of County Officials; 
the National Association of County Recorders, Clerks and 
Registrars; National Association of Secretaries of State; the 
National Association of State Elections Directors. We conduct a 
tremendous amount of outreach to make them aware of what their 
requirements are, what their obligations are to answer their 
questions. And we want to achieve, Congressman Gonzalez, that 
creativity and imagination that you spoke about.
    We do not believe that there is a one-size-fits-all 
solution to compliance with section 203. We want to work with 
covered jurisdictions so that the local election officials who 
know their districts the best, who know their jurisdictions the 
best, have the flexibility to devise solutions that will 
achieve that compliance.
    We enforce low-cost compliance. We have encouraged use of 
information trees, for example; of using faxes and e-mails; of 
communicating through business organizations, unions, social 
and fraternal organizations, churches that have contacts in the 
minority language communities. We have discouraged, for 
example, jurisdictions from placing minority language notices 
in English-language newspapers so that they can better target 
their efforts.
    The first step in our enforcement efforts truly is to try 
to work with the jurisdictions. Having said that, if we find 
that a jurisdiction is not meeting their obligations, we will 
investigate; and if our investigation indicates that they have 
not met their obligations, we will bring enforcement actions, 
as we have done. I mentioned some examples of successful 
enforcement actions in my statement.
    Mr. Chabot. Not to interrupt you there, but my time is 
running out, and I wanted to get a question in to Ms. Narasaki 
if I can.
    Ms. Narasaki, if Congress allows section 203 to expire, 
what will be the impact on the language minority citizens?
    Ms. Narasaki. We believe it will be a very huge impact. As 
I noted for the Asian American community, three-fourths of the 
elected officials who are Asian American come from the 
jurisdictions that are covered by section 203. We have seen 
enormous increases in voter registration and voter turnout in 
all of the newly covered jurisdictions that got covered after 
the 2002 census. So while some jurisdictions do voluntarily 
provide some coverage, it is a minority of jurisdictions, and 
what Councilmember Norby was asking for with a 10 percent 
threshold was basically to not cover Orange County because 
Orange County has about 9 percent who would qualify.
    And also, I am sorry that he left because we have different 
numbers than he does. According to the Orange County Registrar 
of Voters, as of December 2005, they had 72,436 voters who had 
requested materials in other languages. That is 4.8 percent of 
the registered voters there, and we know that the usage is much 
higher because a lot of people don't need the written 
materials, but use the oral system at the polls; and we know 
that because our affiliate in Los Angeles does exit polling and 
has done for the last decade in L.A. And Orange County, and 
according to them, in 2004, about two-thirds--no, 46 percent of 
Chinese, Korean and Vietnamese voters did request assistance. 
So you could see the impact on the ability of Asian Americans 
to vote.
    Mr. Chabot. Thank you very much. My time has expired.
    The gentleman from Virginia Mr. Scott is recognized for 5 
minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, I think it is significant Dr. Tucker 
mentioned all of the waiting lists for bilingual education--for 
English education. If you want to fund more English education, 
you do that through the political process; and if you can't 
vote, obviously you can't reduce those waiting lines. So I 
think what we are talking about here is extremely important not 
only as it affects voting, but as it affects public policy.
    Let me ask Ms. Comisac, based on your experience, is it a 
fact that section 203 has, in fact, increased participation 
amongst citizens who have limited English proficiency?
    Ms. Comisac. I think there is no question that as a result 
of our enforcement efforts, we have seen significant increases 
among--in participation in the electoral process and in 
election among the political ranks in limited English-
proficient voters.
    Mr. Scott. And if you had a desire to reduce participation 
amongst that group, would repeal of section 203 be helpful in 
reducing the participation?
    Ms. Comisac. Well, I certainly am of the opinion that our 
enforcement efforts have shown that we have made steady gains 
as a result of 203 enforcement, gains that I don't think would 
have been accomplished absent our enforcement efforts of 
section 203.
    Mr. Scott. Dr. Tucker, I have a report that apparently your 
organization released on the expenses involved in complying 
with section 203.
    Mr. Tucker. Yes.
    Mr. Scott. Can you give us a little background information 
on how extensive it is to actually comply?
    Mr. Tucker. The costs are minimal, if there are any costs 
at all.
    I guess I should, first of all, begin by saying that the 
report was of every jurisdiction that was covered, down to 
cities of 50,000 or more, and we had a response rate of better 
than 50 percent. We had responses from 29 of the 31 States that 
are covered by section 203, and this was all self-reported 
data. What they indicated--what the election officials 
indicated was that a majority of jurisdictions incur no 
additional costs for either written language materials or oral 
language assistance.
    Mr. Scott. And is that because when they hire a poll 
worker, they would just, for the same amount of money they are 
paying a poll worker, pick somebody that is bilingual?
    Mr. Tucker. Absolutely. And the jurisdictions that are not 
doing that are the ones that are incurring costs for--the costs 
themselves are quite low where they do have costs. On average 
they reported costs of 3 percent for written language materials 
and 1.5 percent for oral language assistants, and these costs 
could obviously be diminished even further by doing as the 
Deputy Assistant Attorney General suggested and adequately 
targeting the materials in oral language assistants to those 
places that actually need it.
    Mr. Scott. Thank you.
    Ms. Narasaki, the threshold of 10,000, of 5 percent, is at 
an extremely high threshold. It actually could--in many areas, 
and I think you mentioned one--be the swing vote in a 
particular district. Does that give those that may not be 
popular in that segment of their district an incentive to try 
to depress the vote?
    Ms. Narasaki. Absolutely. One of the things that we see 
with the changing demographics is there are a threshold of once 
you get to so many minorities in a community, there starts to 
be some push-back and some potential friction. So it is really 
important----
    We actually--as you know, Congressman Scott, the original 
threshold was 5 percent, and what happened was with large 
cities like L.A. County, to be 5 percent of L.A. County meant 
you had to have 500,000 people, which was clearly more than 
many--than a lot of jurisdictions people actually voting. So 
10,000 was picked at a reasonable level, looking at what the 
cost affecting this would be.
    Mr. Scott. In many jurisdictions it may be enough to swing 
an election.
    Ms. Narasaki. Exactly. And in terms of Orange County, under 
Mr. Norby's own testimony, it cost $600,000 in the last 
election, which is 10 percent, $6 million overall costs, for 
Orange County. Well, almost 10 percent of his county is 
eligible. So it is a reasonable trade-off because those are all 
taxpayers as well. That is what we looked at in looking at 
thresholds.
    Mr. Scott. Thank you.
    And finally, Ms. Comisac, can you send observers to enforce 
just section 203?
    Ms. Comisac. I am not certain, but I will certainly find 
out if that is the case.
    Mr. Scott. I think Ms. Narasaki's testimony suggested there 
may be a little glitch where you can send them into a section 
5-covered jurisdiction. While they are there, they can observe 
section 203 violations, but there may not be specific 
authorization to send an observer just for section 203.
    If you could look at that to make sure we don't have a 
little gap in the coverage, and if we do have a gap in the 
coverage, we would want to make sure that we could send 
observers in specifically to observe 203 violations.
    Ms. Comisac. I will be glad to get back to the Committee on 
that.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chabot. The gentleman's time has expired.
    The gentle lady from Texas has 2 minutes.
    Ms. Jackson Lee. Thank you very much.
    Let me ask Ms. Comisac, I was trying to read through your 
testimony, and thank you. Has the Justice Department taken a 
position on the reauthorization of the Voting Rights Act?
    Ms. Comisac. Well, certainly----
    Ms. Jackson Lee. The Administration, excuse me.
    Ms. Comisac. Certainly the Department and the 
Administration in general supports reauthorization of the 
Voting Rights Act, and we certainly support reauthorization of 
the minority language provisions of the act. Clearly H.R. 9 was 
introduced on Tuesday, and we are still examining the 
provisions of that bill.
    Ms. Jackson Lee. So you are doing your due diligence?
    Ms. Comisac. That is correct.
    Ms. Jackson Lee. You are doing your due diligence. I would 
hope that inasmuch as this is a tool that the Justice 
Department has used now for more than two decades--and I think 
Administrations have come and gone, Republicans and Democrats, 
and they have found it to be an effective tool. Many times we 
may have agreed or disagreed with its interpretation that it is 
an effective tool. I would hope that you would engage with 
Congress in this instance, since we are not adversarial, as you 
do your due diligence.
    Can you keep this Committee advised as you do your due 
diligence so that we are aware of hopefully your approval or 
your concerns?
    Ms. Comisac. We will be glad to work with the Committee.
    Ms. Jackson Lee. Let me ask both Ms. Narasaki and Dr. 
Tucker. We have heard comments being made about other language 
groups. Help us quickly--again, for the record, if we use other 
language groups to suggest we shouldn't have it, the 
devastating impact, but then because of your expertise, how we 
might work perspectively in acknowledging the concern of the 
need for other language groups. Dr. Tucker.
    Mr. Tucker. Okay. First of all, it is clearly intended--I--
this is something that has come up before during prior 
reauthorization.
    Ms. Jackson Lee. It is important for the record, yes.
    Mr. Tucker. What has happened, there is a discussion of 
trying to have section 203 applied to all language groups 
throughout the United States. It is problematic in two 
respects. First of all, it raises constitutional issues. 
Section 203 is very narrowly tailored and congruent and 
proportional to the need, and the need has been focused 
specifically on the pattern and history of discrimination both 
in voting and education as to the four groups that are covered.
    It also raises some enforcement problems. The Department of 
Justice doesn't have unlimited resources, and neither do the 
private organizations that bring the lawsuits under the private 
attorneys general provision. Section 2 of the Voting Rights Act 
is available for those sections that are not covered and for 
those languages that are not covered; and, in fact, there have 
been successful cases brought, including one in Hamtramck, 
Michigan, for Arabic-speaking populations under section 2.
    Mr. Chabot. The gentlelady's time has expired.
    The gentlelady from California Ms. Sanchez is recognized 
for 3 minutes.
    Ms. Sanchez. Really quickly, I am going to ask these 
questions of Dr. Tucker and Ms. Narasaki.
    Do you think it is a reasonable starting point--starting 
point to survey those who have ethnic last names and/or you 
have information about them being foreign-born as a starting-
off point in order to survey for whether or not they need 
assistance with voting materials?
    And number two, in what ways can language assistance be 
offered in a cost-effective manner? Because apparently Mr. 
Norby's biggest concern was unfunded mandates and how expensive 
they are for the counties.
    I think, Ms. Narasaki, you touched on that a little bit and 
said it was proportional; but I want to give you a little bit 
of time to expand on that. I was a little confused by Mr. 
Norby's testimony, and I wish he were still here, because on 
the one hand, he argued that we should raise the trigger from 5 
percent to 10 percent and eliminate the 10,000 numerical 
trigger. And then he seemed to contradict himself and say that 
we should lower it because there are other language minorities 
that are not being offered this assistance.
    I want to know from both of you, what do you think the 
world would look like if we eliminated the 10,000 numeric 
triggers and raised the 5 percent trigger to 10 percent, as Mr. 
Norby suggested?
    Ms. Narasaki. Well, I can start out with the cost issue. I 
think, as the testimony has shown, there actually is a lot of 
flexibility in the regulations that the Department of Justice 
has in terms of how they comply, and we very much advise local 
jurisdictions to work closely with the local community-based 
organizations who could help them identify where the 
neighborhoods who--for whom the outreach is necessary, what are 
the ethnic papers you could get the information out on, what 
are the cost-effective radio outreach that you can do? So there 
are many ways that you can cut costs if you work closely with 
the communities that are involved.
    We have been told by the Department of Justice that they, 
in fact, are not asking Orange County to have a telephone book 
of, you know, five languages and voting. We would actually 
advise against that because it makes it unusable for everyone. 
It doesn't make sense to translate something into something 
nobody is going to use.
    So we think actually there is a lot of room to work with 
people both on the cost and how you can best comply. The 
challenge with the surname is, as you know, the census data, in 
terms of individual answers, is private. So you cannot go to 
the census and say, tell us who said they are limited English-
proficient, under fifth grade. You can't do that.
    So as the Department of Justice said, they recognize that 
it is an imperfect way to go about it, but right now it is one 
of the better ways to try to, at least as a starting point, 
figure out where you might go.
    And I think part of the backlash in terms of the responses 
that they got is, if you saw the postcard, I would have put a 
little more explanation in there to people who received it.
    Mr. Chabot. The gentlelady's time has expired. The 
gentleman from----
    Ms. Sanchez. If I could beg the Chairman's indulgence to 
allow Dr. Tucker to perhaps answer one or two questions.
    Mr. Chabot. If you could make it relatively brief, we would 
appreciate it.
    Mr. Tucker. And I will just build on what Ms. Narasaki 
said. First of all, there are a number of ways you can reduce 
the cost. First of all, the HAVA funding that has been provided 
to the State and local jurisdictions has allowed the States to 
purchase new voting equipment where there is absolutely no 
cost. Many of these new machines, they are electronic. They 
have oral language instructions that can be programmed into the 
computer at no additional cost. Private organizations and 
outreach can be done. And to bring those organizations into the 
process to cut down the cost of translation and, quite frankly, 
some of the complaints that Mr.--or Commissioner Norby 
complained about regarding the outreach materials, that is what 
the jurisdiction should be doing. You should be doing outreach 
to the covered communities.
    With respect to the elimination of the 10,000-person 
trigger and the impact, it would have a devastating impact. 
There was a substantial record of this that was introduced in 
1992, and what it would do is it would do a wholesale 
elimination of covered language groups in southern California, 
northern California, particularly Asians, a large number of 
Latinos, particularly in and around the Cook County, Chicago 
area. There was a substantial evidence of discrimination 
against those groups, and, in fact, since the last 
reauthorization, successful section 2 cases have been brought 
in those jurisdictions including in the town of Cicero, 
Illinois. There was a section 2 case involving backlash against 
the growing Latino vote.
    So the bottom line with it is the elimination of the 10,000 
trigger would have a devastating impact, and it would make the 
section 203 far less effective than it is today.
    Ms. Sanchez. Thank you.
    Mr. Chabot. Thank you very much.
    The gentleman from Texas is recognized.
    Mr. Gonzalez. Thank you, Mr. Chairman; thank you, Members 
of the Committee; and thanks to the witnesses.
    Mr. Chabot. Thank you very much, Mr. Gonzalez. We 
appreciate your attendance today, and our final questioner will 
be the gentleman from Maryland Mr. Van Hollen. You are 
recognized for 5 minutes.
    Mr. Van Hollen. Thank you very much, Mr. Chairman. I want 
to thank you and Mr. Nadler again for hosting this hearing, and 
I just have one question, because I know there has been a lot 
of testimony, and that is for Ms. Comisac.
    Does the Justice Department intend to present its views on 
this piece of legislation, number one? And if so, when do you 
expect the Committee would have the benefit of those views?
    Ms. Comisac. Congressman, we are currently in the process 
of analyzing H.R. 9, which was introduced on Tuesday, and we 
will strive to complete our analysis as soon as possible.
    Mr. Van Hollen. All right. Well, thank you.
    Ms. Comisac. Thank you.
    Mr. Chabot. Is that it?
    Mr. Van Hollen. It would be helpful to have it. That is it.
    Mr. Chabot. I want to thank the gentleman. I want to thank 
all the panel up here, and I want to especially thank our 
witnesses here this afternoon for coming.
    This is a very important issue, and each of the witnesses 
has done a great job illuminating these issues. And I might 
note for the panel up here, given the unique nature of this 
issue, we have made an exception to the Committee rules 
regarding the attendance and participation of non-Committee 
Members. This was done in a spirit, obviously, of 
bipartisanship, and it shouldn't necessarily be considered 
precedent for future hearings, but there is nothing----
    Ms. Jackson Lee. It isn't?
    Mr. Chabot. Bipartisanship should always be a precedent. 
But in any event, we very much appreciate the participation of 
everyone here. I believe this is the last hearing we are going 
to have.
    Ms. Jackson Lee. Yes. Would the gentleman yield?
    We have been calling this H.R. 9, and I just welcome the 
opportunity to recite that it is also called the Fannie Lou 
Hamer, Rosa Parks and Coretta Scott King Act, and I think it is 
an appropriate statement for all of us no matter which side of 
the aisle and no matter where we live in America.
    Mr. Chabot. I appreciate the gentlelady having brought that 
up. Having attended Rosa Parks' funeral, as well as many of our 
colleagues, it was a very moving event, and I am very pleased 
you brought that up. Thank you.
    Again, I think this is the last hearing on the Voting 
Rights Act, although this is the 12th; and it may be around for 
a couple more weeks before it is actually voted on on the 
floor. So I wouldn't say for sure it is the last hearing. Yeah, 
they are saying it is the last hearing. I have heard that 
before. They said that at number nine, but it has been an 
extremely good experience for all of us, and we want to thank, 
again, the witness panel for being here.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 4:10 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Member, Subcommittee on the 
                              Constitution
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Prepared Statement of the Honorable Melvin L. Watt, a Representative in 
Congress from the State of North Carolina, and Member, Subcommittee on 
                            the Constitution
    Ten years after passage of the Voting Rights Act, Congress in 1975 
recognized the link between high rates of limited English proficiency 
within certain language minorities and the denial by State and local 
governments of equal educational opportunities for language minority 
citizens resulting in low voter participation rates. Since that time, 
Congress has reviewed the operation of the language assistance 
provisions of the Voting Rights Act and the increased participation of 
language minorities covered by the Act in the electoral process.
    Most recently in 1992, and again this term, Congress received 
evidence that the denial of equal educational opportunities to language 
minority citizens covered by the Voting Rights Act persists. Section 5 
enforcement actions and objections also provide ample evidence of 
present day discrimination against citizens with limited English 
proficiency. Where language assistance is provided, however, the record 
reflects measurable progress towards full participation in the 
political process by affected citizens from the relevant language 
minority communities. This is a good thing.
    Just as in prior reauthorizations of Section 203--and I quote from 
the 1982 Senate report--``The testimony [we received this Congress] 
refuted allegations that bilingual elections are `excessively costly'; 
that they discourage non-English speaking citizens from learning 
English; that they threaten the ideal of the American `melting pot'; 
and that they foster `cultural separatism.` '' These arguments have all 
been made before. They are as unpersuasive now as they were then. 
Increasing the opportunity for all Americans to play their role in our 
democracy makes us stronger, not weaker. It unites, not divides us. 
Society is enriched by the diversity of voices and views that are heard 
at the ballot box.
    Earlier today we heard rank speculation that the arduous process of 
assembling a record to determine the content of the bill we now have 
before us was, in effect, a sham--a process designed to reach a pre-
ordained conclusion. Nothing can be further from the truth. The truth 
of the matter is, specifically with respect to the language assistance 
provisions, for example, while I stand behind the bill we have 
introduced, I am disappointed that we did not lower the population 
threshold that would have provided even more citizens from language 
minority groups the opportunity to obtain voting assistance in the 
language with which they are most comfortable. I believe, however, that 
the record before us, at a minimum, supports the conclusion reflected 
in H.R. 9 that the continuation of the current requirements is 
necessary and appropriate to enable hard working, tax paying, American 
citizens with limited English proficiency to participate equally and on 
the same terms as fluent English speakers in the body politic.
    This bill is no panacea. But nothing in this bill or the 
Constitution prevents State and local jurisdictions from enacting and 
implementing innovative, inclusionary practices to foster broader civic 
involvement by its residents. Indeed, some jurisdictions have done so--
voluntarily expanding the franchise to concentrations of language 
minorities within their boundaries by providing voting materials and 
ballots in those languages. For example, in Chicago voluntary voter 
assistance is provided in Polish, Russian, Greek, German, Korean and 
Serbian. In Boston, the city has pledged to provide language assistance 
in Spanish, Haitian Creole, Cape Verdean Creole, Vietnamese, Portugese, 
Chinese, and Russian.
    The bill before us today extends the current language assistance 
provisions of the Voting Rights Act and is supported by the record. It 
does not discourage or prohibit any State or political subdivision from 
doing more to open its processes to more voices thereby enhancing our 
democracy.
                               __________
Prepared Statement of the Honorable Linda T. Sanchez, a Representative 
                in Congress from the State of California
    On behalf of the Congressional Hispanic Caucus, I thank Chairman 
Sensenbrenner, Ranking Member Conyers, Subcommittee Chairman Chabot and 
Ranking Member Nadler for their leadership and commitment to 
reauthorizing the Voting Rights Act.
    I also want to thank Congressman Watt, for being the voice and 
conscience of the Tri-Caucus during the drafting of this landmark 
reauthorization bill.
    The ``Voting Rights Act Reauthorization and Amendments Act'' is a 
bill proudly supported by Democrats and Republicans in both the House 
and Senate. H.R. 9 is a shining example of quality, bipartisan 
legislation that respects American ideals.
    By passing H.R. 9, our Committee will honor the sacrifices of the 
great civil rights champions and namesakes of this bill: Fannie Lou 
Hamer, Rosa Parks, and Coretta Scott King.
    Over the last several months, H.R. 9's provisions have been 
carefully and effectively crafted to stomp out voting discrimination 
and remove the barriers to full participation in the electoral process.
    The bipartisan support for this bill is proof that we all agree 
that voting is a fundamental right that gives every American citizen 
the power to participate, influence, and collectively shape our 
democratic government.
    That power should not be denied to any citizen, regardless of the 
color of their skin, or the language they speak.
    Sadly, the record established during the reauthorization hearings 
last fall proved that discrimination against racial and language 
minority citizens still exists.
    That is why I believe that passing H.R. 9, including reauthorizing 
Section 203, is essential to safeguarding the voting rights of every 
American citizen.
    I sincerely hope that this bill is marked up today without partisan 
or ideological amendments added to it.
    Every Member of this body should join in support for this bill ``as 
is,'' and resist pressures to weaken its protections or strip any of 
its provisions in order to score short-term political points.
    Again, I thank the Chairmen and Ranking Members of both the Full 
Committee and Subcommittee for their leadership on this issue. And, I 
strongly urge all of my colleagues to support a clean Voting Rights 
Reauthorization bill.
    I yield back.
Response to post-hearing questions from Rena Comisac, Principal Deputy 
   Assistant Attorney General, Civil Rights Division, Department of 
                                Justice
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Letter from Loren Leman, Lieutenant Governor of Alaska, in response to 
testimony by the Leadership Conference, and a report by Native American 
  Rights Fund Attorney Natalie Landreth, and law student Moira Smith, 
         presented before the Subcommittee on the Constitution
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Letter in support of reauthorization from Larry Naake, Executive 
           Director, National Association of Counties (NACO)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Letter in opposition to reauthorization from Mark C. Scott, Esquire, 
Commissioner, Office of the Commissioners of Berks County, Pennsylvania
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Letter in opposition to reauthorization from Steve Tatarenko, 
                    Councilman, Clifton, New Jersey
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Prepared Statement of Jan Tyler, former Denver Election Commissioner, 
                            Denver, Colorado
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>
</pre></body></html>
